           This document is subject to the provisions of the Privacy Act ofl974, and may require redaction
           before disclosure to third parties. No redaction has been performed by the Office of Inspector
           General. Recipients of this report should not disseminate or copy it without the Inspector General's
           approval.


                               REPORT OF INVESTIGATION
            UNITED STATES SECURITIES AND EXCHANGE COMMlSSION
                      ,OFFICE OF INSPECTOR GENERAL

                                                Case No. OIG-516


                             Investigation of Fort Worth Regional Office's

                                Conduct of the Stanford Investigation


                                           Introduction and Background

                  The Office of Inspector General ("OIG") recently received several complaints
          regarding the Securities and Exchange Commission's (SEC's) investigation of, and
          action against, Robert Allen Stanford and his companies (collectively, hereinafter,
          referred to as "Stanford"). These complaints generally faulted the SEC for not acting
          sooner and more aggressively to discover and shut down Stanford's alleged Ponzi
          scheme. Specifically, the complaints charged that the SEC staff had not diligently
          pursued its investigation of Stanford until the Madoff Ponzi scheme collapsed in
          December 2008. The complaints also criticized the SEC for "standing down" from its
          investigation at some point in response to a request from another federal law enforcement
          entity. The latter criticism appears to have been based on news reports thatthe SEC
          investigation of Stanford had been delayed by such a request.

                  On February 17,2009, the SEC filed an action in the U.S. District Court for the
          Northern District of Texas alleging that Stanford and his co-defendants orchestrated a $8
          billion fraud based on false promises of guaranteed returns related to certificates of
          deposit ("CDs") issued by the Antiguan-based Stanford International Bank ("SIB").) ,The
'.   ')   SEC's Complaint alleged that SIB sold approximately $8 billion of CDs to investors by
          promising improbable and unsubstantiated high interest rates. 2 Pursuant to the SEC's
      !


          request for emergency relief, the Court immediately issued a temporary restraining order,
          froze the defendants' assets, and appointed a receiver to marshal those assets.




                   Stanford's co-defendants include SIB, Houston-based broker-dealer and investment adviser
          Stanford Group Company ("SGC"), and investment adviser Stanford Capital Management ("SCM"). The
          SEC also charged SIB Chief Financial Officer James Davis and Laura Pendergest-Holt, Chieflnvestment
          Officer of Stanford Financial Group ("SPG"), for their alleged role in Stanford's fraud:

                  The SEC Complaint against Stanford is attached as Exhibit).
      This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
      before disclosure to third parties. No redaction has been performed by the Office oflnspector
      General. Recipients of this report should not disseminate or copy it without the Inspector General's
\     approval.

              After reviewing documents obtained from the court-appointed receiver, the SEC
      filed an amended complaint on February 27, 2009, further alleging that Stanford was
      conducting a Ponzi scheme. 3

                                              Scope of the Investigation

               The OIG interviewed Steve Korotash, Associate Regional Director ofthe SEC's
     Fort Worth Regional Office ("FWRO"), on May 12,2009, re ardin the chronology of
     the SEC's Stanford investigation. The OIG also interviewed (b)(7)(C)           the FWRO
     (b)(7)(C)      assi _ned to the Stanford matter, on March 14, 2009. A second interview
     with (b)(7)(C)        ]was conducted on June 8, 2009. 5 In addition, the OIG reviewed
     numerous documents related to the investigation of, and the litigation against, Stanford,
     including: (1) a referral from the Office of Compliance Ins ections and Examinations
     ("OCIE"); (2) a CQ of the Action Memorandu (b)(5)                           -         dated
.~
     October 11, 2006,[(b)(5)                                   (3) the Fonnal Order of
     Investigation dated October 26,2006; (4) a Memorandum to the United States
     Department of Justice ("DOJ") regarding the criminal referral ("DOJ Referral") dated
     April 22, 2008; (5) a June 19,2009 Indictment of Robert Stanford and others
     ("Indictment"); (6) information from the SEC Division of Enforcement's internal case
     tracking systems; (7) the SEC's February 16, 2009 Complaint (the "Complaint"); (8) the
     SEC's First Amended Complaint filed on February 27, 2009 (the "First Amended
     Complaint"); and (9) the SEC's Second Amended Complaint filed on June 19, 2009 (the
     "Second Amended Complaint").

                                                   Relevant Legal Standard

             The SEC's Enforcement staff has the obligation to continuously and diligently
     investigate instances of securities fraud, as set forth in the Commission Canon ofEthics
     in the Code of Federal Regulations. The Policy of the Canon recognizes that "[i]t is
     characteristic of the administrative process that the Members ofthe Commission and their
     place in public opinion are affected by the advice.and conduct of the staff, particularly the
     professional and executive employees.,,6 Hence, "it shall be the policy of the
     Commission to require that employees bear in mind the principles specified in the


              The SEC's FirstAmended Complaint against Stariford is attached as Exhibit2.




     5        A transcript of the June 8, 2009 interview with!_(b)_(7_)(_C_)   ---'f!8l0~   Tr.") is attached as
     Exhibit 4.

               17 C.F.R. § 200.51 (2009.)



                                                               2
      This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
      before disclosure to third parties. No redaction has been performed by the Office oflnspector
      General. Recipients of this report should not disseminate or copy it without the Inspector General's
      approval.

      Canons." 7 The Preamble of the Canon clearly states the serious duty placed upon
      members of the Commission and the staff, as follows:

                       Members of the Securities and Exchange Commission are entrusted
                       by various enactments of the Congress with powers and duties ofgreat
                       social and economic significance to the American people. It is their task
                       to regulate varied aspects of the American economy, within the limits
                       prescribed by Congress, to insure that our private enterprise system serves the
                       welfare of all citizens. Their success in this endeavor is a bulwark against
                       possible abuses and injustice which, if left unchecked, might jeopardize the
                       strength of our economic institutions. 8

              The Canon further provides: "In administering the law, members of this
      Commission should vigorously enforce compliance with the law by all persons affected
      thereby.,,9 The Canon also affirms that: "Members should recognize that their obligation
      to preserve the sanctity of the laws administered by them requires thatthey pursue and
      prosecute, vigorously and diligently but at the same time fairly and impartially and with
      dignity, all matters which they or others take to the courts fOf judicial review."'lO

                                                         Results of the Investigation

               The FWRO staff investigators opened a formal investigation of Stanford (FW­
      02973) on June 15,2005, which was precipitated by a referral from FWRO examination
      staff after its examinations of Stanford GrOll Com an "SGC" .11 ocm's referral
     rindicate_di1U:J2nc~.'"'-U_(b_)(5_),_(b_)(_8)
      b)(5).(b)(8)
                                                                                                             ---I




oj
 !   l           Id.
                                  -   _ _. _ _.           .                                               ----l




                 17 C.F.R. § 200.53 (2009).

                 17 C.F.R. § 200.55 (2009).
     10
                 17 C.F.R. § 200.64 (2009).
     11
                 Memorandum from OeIE on Referral to Enforcement (Mar. 14,2005) (attached asE)(hibit5).

     rCSUbl(B)Id. at 5.
     12                    The OCIE referral further stated:
                                                     ~
                                                                 (b)(5),(b)(8)
                                                         ~==~~~_.~~=~~==~======~




                                                                   3

        This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
        before disclosure to third parties. ·No redaction has been performed by the Office of Inspector
        General. Recipients of this report should not disseminate or copy it without the Inspector General's
        approval.
                (b)(5),(b)(8)




                After opening the investigation, the FWRO Enforcement staff sent a questionnaire
        to 1400f SIB's U.S. and foreign investors and interviewed some of those investors. 14
        The responses from those investors generally confinned that the investors were receiving
        their promised payments. 15 The FWRO staff also requested and reviewed documents
        from fonner SOC sales representatives; interviewed former SOC sales representatives;
        and requested and reviewed documents from brokerage firms doing business withSGC. 16

                The FWRO staff also sent voluntary document requests to SOC and SIB,and
 ,.;
         reviewed several hundred boxes of documents that SOC produced in response to.those
         requests. I? However,Fi~--------                                    j the FWRO staff
        was hindered byjJ.!~tional issues and Stanford's lack of cooperation. 18 The
       l(b)(5)               ~SIB refused to produce any docwnents it deemed were "bank­
        related," citing Antiguan bank secrecy laws and also took the position that the CDs were
        not securities. 19 Consequently, the FWRO staf~(b)(5)           Idid not receive any
        documents from SIB or related to the CD product,2o

               At the outset of its investigation, the FWRO staff asked the SEC's Office of
       International Affairs ("OIA") for assistance in resolving these jurisdictional issues. On
       June 9, 2005, OIA sent the Antigua Financial Services Regulatory Commission
       ("AFSRC") a "detailed letter and request for assistance in obtaining SIB account
       documents.,,21 In a letter dated June 21, 2005, Leroy King, the Administrator and Chief


       13	
                 Id. at 1.
       14
               ~--
       15
               li~i7)      13/14/09   Tr. at 10 (Ex. 3).
.. I   16


       17	
               l(b)(5)
                                                               J
                Id. at 1, 5.

       18
                Id. at 5.

       J9
                Id.


       F(5)~~} bn:?T_r._at_4_(~X' 3)~~e~_a_ls_oF_) - - - - - - - - - - - - - - - - - , - - - ­
       21	    1_(b_)(5_>                                   _




                                                               4
            This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
            before disclosure to third parties. No redaction has been performed by the Officeoflnspector
            General. Recipients of this report should not disseminate or copy it without the Inspector General's
            approval.

            Executive Officer for AFSRC represented that if Stanford were running a Ponzi scheme
            AFRSC would have detected i t , 2 2 '

                  In October 2006, the FWRO staff described the status of its efforts to obtain
           records from Antigua as follows:
                      (b)(5)




                  !
                  l       _        ..   _-..   _ _   _ _   _._--•....._ - - - - - - - - - - - - - - - - - - - '


I.

i
I
      l-
           bank-related documents, the FWRO staff requested (b)(5)
           In support of its request, the FWRO staff explained:
                                                                         r
                  Because Stanford continued to be non-resPo shre..1D.J:eOue} to prooduce any
                                                                             n October 11,2006. 24
                                                                                ..

!                 I~~




           The Commission issued a formal order of investigation on October 26, 2006.

                  During 2007, while the FWRO staff continued its unsuccessful efforts to obtain
           records related to the SIB CDs, it also pursued its investigation of SBC's sales practice



      .,   22        This letter is described in paragraph 49, pp. 21-22, ofa June 19,2009 .indictment ofLeroy King
           for, inter alia, criminal obstruction of the SEC's Stanford investigation. That indictment is attached as
I      I   Exhibit 7.
I

                  I<b)(5)
I          23




i·'
!
           24
                      Jd. atS.'

           25        Jd. Until April 2008, the staff's concern that Stanford was operating a Ponzi scheme was based on
           the aggressive sales practices Stanford employed to sell the CDs. Jd. at 6. Without a witness or theSlB
           records that it sought but were denied, the staff believed it had no evidence of a Ponzi sCheme.I~~ ~/8/09
           Tr. at 26-27 (Ex. 4). As disclIssed below, in April 2008 a whistleblower alleged that Stanford ml t e
           operating a Ponzi scheme. Although the whistJeblower did not have evidence that Stanford was operating a
           Ponzi scheme, the staff contacted DOJ at that point with its concern. Jd. at 8, 10.



                                                                5

         This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
         before disclosure to third parties. No redaction has been performed by the Office of Inspector
         General. Recipients of this report should not disseminate or copy it without the Inspector General's
         approval.

         and disclosure issues. 26 After obtaining the formal order, the FWRO staff subpoenaed
         testimony and documel1Js fr()m ~~ral individuals, including Robert Allen Stanford.27
         However, according to(b)(7)(C~ ==.Jthe FWRO staffs efforts to obtain records related
         to Stanford's CD program continued to be frustrated due to jurisdictional issues.28

     r;---~ I~OriL20WLt}
     l(b)(7)(Cl,(bl   (b)(7)(C) (b)(7)(D)
                                              FWRO staff was contacted by two whistleblowers, (~)(~)(g),
                                                           ..                                .
     1(7j(DL__ and             '__.          who had been Illvolved III sales of s~c'~ropnet mutual
           fund wrap program, Stanford Allocation Strategy ("SAS,,).29 (b>E.~ an (b)(7)(C)~             ere
        . concerned that false and misleading information regarding the past perfonnanc fthe
        ,-S.ARrm~tual funds wa~being used to market the SAS program to investors (~(7~ 7 and
        _~~~{C),(b) Iwere!(b)(7l.(:l,(b)(7)(D)               Ibut had lio direct involvement with the. SIB CD
           program. On April 15,2008, the FWRO staff received an e­ a'l t o e '
           .EnfQrcem~nt.c..omoJainU=lenterfrom a third whistleblower,:(b)(7)(C),(b)(7)(D)
          ~)(?)(C).(b)(7)(Dl_.              .J:the "Witness"). In the e-mail, the Witness stated:

                 Please take a deeper look into Stanford International Bank. l-know there has been
                 an in.vestjgation1into sales~:c::s, Jut you need to focus on. the bank  .. ·1~~l~Wgl'          I
                (b)(7)(C),(b)(7)(D)                      and am 100% sure thattheSIBCD is a
                 comp ete fraud. I only wiS1l a ar proof for you, but I assure you that
                 thousands of U.S. investors are being duped and stand to lose their life savings.30

                 On APIiL22, 2008....1b..e..EWRO staff made a written criminal referral regarding
        Stanford ~~)(7)(C}                     -'in the Fraud ~ection of the Criminal Division at
        DOJ, andl)~,Ul]forwarded the written referral on to~supervisors.31 The referral
        detailed the FWRO staffs investigative work to that point and the Witness' allegations. 32
        As the referral indicated, it was motivated by the FWRO staffs heightened concern,
        based on the Witness' suspicions, that Stanford might be operating a Ponzi scheme and
        by frustration over its inability to obtain records that might expose that schemeY In the
        referral, the FWRO staff expressed its concerns and frustration as follows:



        26
               ~~t')-   13/14/09 Tr. at 6-7 (Ex, 3).
        27
                 Stanford Subpoena (June 5,2007) is attached as Exhibit 8.
        28     [(b}(7)l
              . !(C\_ 3/14/09    Tr. at 4-5 (Ex. 3).
        29
                 Id.·at 19-20 (Ex. 3).
        30
                 DOl Referral at 2 (attached as Exhibit 9).
'.
        31
                See DOl Referral (Ex. 9).
        32
                Id. at 2-3.
        33
                Id. at 2.




                                                              6
         This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
         before disclosure to third parties. No redaction has been performed by the Office oflnspector
         General. Recipients of this report should not dissem inate or copy it without the Inspector General's
         approval.
                "'(b"'}(""5)---------------------~---------,




                 In response to the referral, DO] asked the FWRO staff to not pursue any
         investigative action with respect to SIB or the CD product while it considered how to
         launch its own investigation of possible wire fraud and/or money laundering activity
         associated with the CD offerings. 35 While DOJ considered its course of action the
.. "1    FWRO staff continued working with the .first two whistleblowers (b)(7)
                                                              36
                                                                            C b        b7D in
                                                                                    d (b)(7)(C),
         consultation with DOJ, regarding the SAS_program. The FWR st contmue to
         review documents related to the marketing ofthe.-SA.SJ2mgram that these indivlduiUs

         provided. The FWRO staff also reviewed al(b)(7)(C}                   ­
        [b){7){Al'lb){i){C}'(b){7){Dl .•   ,.        . . . - - - . - - -.. - - - - - - - j




                By July 2008, the FWRO staff believed, based on conversations with DO], that it
        could not continue its inves~igation ofSCO's sales practices without jeopardizing DOJ's
        ongoing investigation. 38 The FWRO staff contacted DOJ and asked if it could continue
        its investigation of the SAS program, and DOJ told the FWRO staff that it preferred that
        the SEC wait before taking any additional investigative steps.39 The FWRO staff
        deferred to DOl's request in order to avoid compromising DOl's investigation.4o

                 After December 11,2008, when Madoffs Ponzi scheme collapsed, the FWRO
        staff felt an increased sense of urgency regarding any ongoing investigations of possible
        Ponzi schemes. 41 The FWRO staff contacted the FBI and inquired as to the status of its
        Stanford investigation and learned that the FBI's investigation was in the preliminary
           This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
           before disclosure to third parties. No redaction has been performed by the Office of Inspector
           General. Recipients of this report should not disseminate or copy it without the Inspector General's
           approval.

           stage. 42 The FBI told the FWRO staff that any investigative steps the FwRO staff
           contemplated mi¥:ht compromise the FBI's investigation and asked the FWRO staffto
           continue to wait. 3 At that point, the FWRO staff contacted DO] and expressed its
           concern about deferring the SEC investigation any longer, and DO] told the FWRO staff
           that, in light of the revelations about Madoffs Ponzi scheme, it no longer objected to the
           staff pursuing its investigation. 44

                   Continuing the investigation, the FWRO staff interviewed former Stanford
         r.-cemQloyees in IiQ!:!ston,_.Jexas~--9ne former employee,!(b)(7)(C),(b)(7)(D)                             I
         ~~~?),(b)(7)(D)                       iprovided critical documents and sworn testimony in
          January 2009.'10

                      On February 13,2009, the FWRO staff recommended (b)(5)
          (b)(5)




         (b~~the complaint was filed on February 16,2009.

                  The SEC's February 16,2009 Complaint (the "Complaint") alleged that certain
          representations to investors regarding the safety of their CD investments were
    i·    fraudulent,49 According to the Complaint, Stanford represented that the clients" funds
    ,!    were invested in "liquid" investments, but the records available to the staff at that time
          indicated that investors' funds were "placed in illiquid investments, such as real estate
          and private equity."so In addition, the Complaint alleged that Stanford had used
          "materially false and misleading historical performance data" to sell investments in its


          42
                      Id. at 22-23.
          43
                    I~~?) 16/8/09 Tr. at 14 (Ex. 4).
          44
                      Id. at 14-15.
          45
                      Id.at16.
          46
                      Id. at 18.
                                                                          .----- .. -   ----_._-_.---   --------------,
          47        I(bj(sf                                          -

                   . L __=occCC~C"' .,c._=oc-~==_-._"C""'=~"=_----
         [bi(5)­
                                                                     _ _ _ _...                                      -----J



          48
                     Id. at 7.
          49
                      Complaint at ~ 1 (Ex. 1).
          50
                     Jd.at~9 .


 .. !
..  :

                                                                     8

        This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
        before disclosure to third pal·ties. No redaction has been performed by the Office of Inspector
        General. Recipients of this report should not disseminate or copy it without the Inspector General's
        approval.

        SAS program. 51 The Complaint did not allege that the SIB CD program was a Ponzi
        scheme because the staff had no evidence to support such allegations.52

                On February 16,2009 the Court granted the SEC's request and appointed Ralph
       Janvey as receiver for Stanford.53 After the appointment of a receiver, the SEC was able
       to obtain bank records related to the CD program which it had been previously denied. 54
       Those records revealed that the illiquid investments, such as real estate and private
       equity, that had purportedly been purchased with the CD proceeds did not exist, and that
       the SIB CD program was a Ponzi scheme. 55 Based on the new evidence, the FWRO staff
       filed a First Amended Complaint on February 27, 2009, adding allegationsofa Ponzi
       scheme. 56                                    .                              .

               On June 19,2009, Robert Stanford, Laura Pendergest-Holt, ChiefInvestment
       Officer ofSFG, and Leroy King, the Administrator and Chief Executive Officer for
       AFSRC, were indicted for, inter alia, conspiring to obstruct the SEC's Stanford
       investigation since sometime in 2005. 57 Leroy King "was responsible for Antigua's
       regulatory oversight of [SIB's] investment portfolio ... and the response to requests by
       foreign regulators, including the SEC, for information and documents about [SIB's]
       operations.,,58 According to the indictment:          .

                Stanford would make regular secret corrupt payments of thousands of dollars in
                cash to [Leroy J King ... to ensure that '"

                             b.	       [Leroy] King corruptly would provide to Stanford ... infonnation
                                       about official inquiries that the [AFSRC] had received from United
                                       States regulators who had requested inforrnationfrom the
                                       [AFSRC] regarding 'possible fraud perpetrated upon investors' by
                                       [SIB]; and



       51
                ld. at ~ 1l.
       52
              [i~r)]6/8/09 Tr. at 25 (Ex. 4.)
       53       Receiver's Motion for Order Authorizing Release of Certain Customer Assets (filed March 4,
       2009) is attached as Exhibit 11.
       54
               li~?)   r/l   4/09 T~. at 9 (Ex. 3).
       55
                First Amended Complaint at ~ 37 (Ex. 2).

       56
               ld. at ~ 1.
       57	
               See Indictment attached as Exhibit 7 at 41-45.
       58
               ld. at 5.

   I
'0:\
                                                            9
      This document is subject to the provisions of the Privacy Act bf 1974, and may require redaction
      before disclosure to third parties. No redaction has been performed by the Office oflnspector
      General. Recipients of this report should not disseminate or copy it without the Inspector General's
      approval.

                          c.	   [Leroy] King would make false representations in response to
                                offici~l1
                                       inquiries of regulators, including U.S. regulators, and
                                would ... prepar[e] false responses to such inquires.59

              Also on June 19,2009, the SEC amended its complaint and charged Leroy King
      with aiding and abetting Stanford's fraud. 6o The Second Amended Complaint also added
      two defendants, Mark Kuhrt and Gilberto Lopez. Kuhrt and Lopez were accountants for
      Stanford and were charged in the Second Amended Complaint for allegedly fabricating
      financial statements.


                                             Conclusion

             The OIG investigation found that the FWRO was actively investigating Stanford
     well before the December 2008 revelations about Madoffs Ponzi scheme. However, the
     FWRO staffs efforts to pursue its suspicions of a Ponzi scheme in the Stanford
     investigation were hampered by a lack of cooperation on the part of Stanford and his
     counsel; certain jurisdictional obstacles; and, according to a recent DOJ indictment,
     criminal obstruction of the FWRO's Stanford investigation by several individuals
     including the head of Antigua's Financial Services Regulatory Commission.

             The OIG did find that after April 2008, when the FWRO staffreferred its concern
     that Stanford might be running a Ponzi scheme out of Antigua to DOJ, the FWRO, at
     DOl's request, effectively halted its Stanford investigation. Immediately after the
     revelations of the MadoffPonzi scheme became public in December 2008, the Stanford
     investigation became more urgent for the FWRO and, after ascertaining that the DOJ
     investigation was in its preliminary phase, the FWRO staff asked DOJ if it could move
     forward with the Stanford investigation. After DOJ gave the FWRO staff the go-ahead,
     the FWRO staff gathered more evidence of certain fraudulent marketing practices by
     Stanford. That evidence allowed the SEC to file a civil action against Stanford on
     February 16,2009. That action did not include allegations ofa Ponzi scheme because, at
     that point, Stanford and the Antiguan authorities continued to deny the staff access to
     records related to the SIB CD program and the FWRO staff did not believe that it had
.i   sufficient evidence to include such allegations in the SEC's Complaint.

            Finally, the OIG found that the SEC's February 16,2009 Complaint and Request
     for Emergency Relief resulted in the appointment of a receiver who gained access to
     records regarding the SIB CD program, and provided those records to the FWRO staff.
     Based on those records, the FWRO staff filed an Amended Complaint on February 27,
     2009, adding allegations that the SIB CD program was a Ponzi scheme.

     S9	
             Id. at 18.
     60
             See Second Amended Complaint attached as Exhibit 12.



                                                      10
      This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
      before disclosure to third parties. No redaction has been performed by the Office oflnspector
      General. Recipients of this report should not disseminate or copy it without the Inspector General's
      approval.



               Accordingly, the OIG did not conclude that the SEC breached its obligations to
      vigorously pursue allegations of wrongdoing in the Stanford matter as the SEC's decision
      to halt its Stanford investigation was made in response to a specific request from the
      DOJ. The OIG did find that the SEC's urgency in the Stanford matter increased
      significantly once Madoff confessed to a Ponzi scheme and, at that point, the SEC
      impressed upon the DOJ that it could no longer hold its investigation in abeyance. The
      OIG further found that once DOJ informed the SEC that it no longer had any Qbjection to
      the SEC continuing to pursue its investigation, the SEC moved quickly to bring an action
      against Stanford.


      Submitted:      kJ,/U-o
                      Samuel W. Morris
                                                        Date:    (0   J111;;009
                                                                    r I
                                   ~#
'I.

      Concur:                                           Date:   .&!l1h£J t
                                                                      ~    I
                                                                                    Cl


      Approved:          it~
                      WDavid Kotz
                                                        Date:    )_~ \~('\.6~'1




                                                      11

